TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Office of Appeals Closed Case Files Are
                    Overwhelming Onsite Storage Space



                                        January 15, 2008

                              Reference Number: 2008-10-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 15, 2008


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Appeals Closed Case Files Are
                             Overwhelming Onsite Storage Space (Audit # 200610050)

 This report presents the results of our review of the Office of Appeals (Appeals) closed case
 files. The overall objective of this review was to determine whether Appeals has an effective
 process to efficiently retain closed case information. This audit was performed as a result of
 information identified during a previous audit and was included in our Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 Appeals creates an internal file containing copies of documents related to each hearing
 conducted. However, because it closes more than 100,000 cases a year, Appeals is running out
 of storage space for these files and has begun shipping them to offsite storage for a fee. Appeals
 could save the time for creating the files and expense of the offsite storage to improve taxpayer
 services in support of its mission. The staff time used to create the files could be used to process
 additional Appeals cases, and the funds used to pay for the offsite storage could be used to fund
 additional staff positions in Appeals.

 Synopsis
 The Appeals closed case filing system is rapidly becoming unmanageable and losing the benefit
 of its original reason for creation. Appeals closed case files are used primarily because Appeals
 has had difficulty in obtaining administrative files promptly from the Internal Revenue Service
 (IRS) business units. Because its inventory is consistently more than 100,000 closed cases per
 year, and some closed case files are retained for up to 10 years, Appeals is faced with difficult
 decisions about the method it uses to retain these files. Some case files are no longer easily
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



accessible to Appeals employees, and Appeals is running out of storage space. In addition, the
files contain duplicate information that is available in the administrative files and, in some cases,
electronically on the Appeals computer system. Further, Appeals did not know how often its
files were used and by whom, what documents were requested, what types of cases were
reviewed most often, or how often its files were needed as the cases got older.
Due to space limitations, Appeals has begun to ship some files to a Federal Records Center1 to
store them for a fee.2 However, by shipping the files to a third party, Appeals is losing the
benefits of creating these files–better control over obtaining the files and the convenience of
having the records onsite. We estimated Appeals could spend about $78,000 over a 10-year
period to store its files at the various Federal Records Centers nationwide. We also estimated
Appeals is spending at least $266,000 each year for staff time and supplies to create its files.
Given these conditions, we believe Appeals should revise its policies and procedures related to
the creation, storage, and retention of Appeals files.
In Calendar Year 2003, Appeals began development of the Paperless Attachment Program to
create and store electronic versions of its files. However, the Program was not adequately
planned or tested. In Fiscal Year 2007, Appeals suspended the Program to evaluate technical
alternatives and to implement a project management approach. We believe Appeals should
further assess the storage and technical requirements of the Program and conduct controlled tests
before implementing it.

Recommendations
We recommended the Chief, Appeals:
    •   Conduct an analysis on all types of cases to determine how often and when Appeals files
        are accessed, including which documents are most often reviewed.
    •   Based on this analysis, issue new guidelines for retention of Appeals files.
    •   Destroy or return the existing Appeals files currently stored at the Federal Records
        Centers and discontinue sending them for storage.
    •   Conduct further planning, analysis, and testing of the Paperless Attachment Program.




1
 Appendix VI presents a Glossary of Terms used in the report.
2
 At the time of our fieldwork, only one Appeals location had records stored in its local Federal Records Center.
Other Appeals locations were also considering sending files to the local Federal Records Centers.
                                                                                                                   2
                             The Office of Appeals Closed Case Files Are
                                Overwhelming Onsite Storage Space




Response
IRS management agreed with all of our recommendations. Appeals plans to conduct an analysis
of how often and when Appeals files are accessed as well as the reason for access and types of
documents involved. Based on results of the analysis of how often and when Appeals files are
accessed, Appeals plans to emphasize and/or issue case file retention guidelines. Appeals plans
to also perform an analysis to determine if its files for Equivalent Hearings are being kept longer
than required by the Appeals Records Control Schedule. Further, Appeals plans to determine
which of its files currently stored at a Federal Records Center are duplicates, so they can be
returned and destroyed. Appeals plans to revise guidelines to ensure no Appeals files that
duplicate information already stored at a Federal Records Center are sent to a Federal Records
Center. Finally, Appeals plans to conduct further planning, analysis, and testing before
implementing or cancelling the Paperless Attachment Program. Management’s complete
response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                  3
                                      The Office of Appeals Closed Case Files Are
                                         Overwhelming Onsite Storage Space




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Problems With and Costs of Storing Appeals Closed Case Files
          May Exceed the Benefits ..............................................................................Page 3
                    Recommendations 1 through 3:.........................................Page 10

          The Appeals Paperless Attachment Program May Not
          Replace Appeals Closed Case Files..............................................................Page 10
                    Recommendation 4:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measure ................................................................Page 19
          Appendix V – Contents of Appeals Closed Office Files ..............................Page 20
          Appendix VI – Glossary of Terms................................................................Page 22
          Appendix VII – Management’s Response to the Draft Report.....................Page 25
       The Office of Appeals Closed Case Files Are
          Overwhelming Onsite Storage Space




             Abbreviations

ACDS   Appeals Centralized Database System
CDP    Collection Due Process
FY     Fiscal Year
IRS    Internal Revenue Service
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space




                                             Background

Taxpayers who disagree with the Internal Revenue Service (IRS) about their tax liabilities or
certain collection actions have the right to ask the Office of Appeals (Appeals) to review their
cases. Appeals is an independent function within the IRS whose mission is to settle tax disputes
fairly and impartially without litigation.
Before enactment of the IRS Restructuring and Reform Act of 1998,1 the majority of Appeals
cases involved hearings for examinations and penalty assessments or for court-docketed cases.
The volume of Appeals cases increased significantly after enactment of the IRS Restructuring
and Reform Act of 1998, because the Act established appeal rights for Collection Due Process
(CDP),2 Offer in Compromise, and Innocent Spouse cases. These types of cases have become a
significant portion of Appeals casework. In Fiscal Year (FY) 2006, Appeals closed
approximately 102,600 cases. Figure 1 presents the total Appeals cases, by type, closed in
FYs 2004 - 2006.
                           Figure 1: Appeals Inventory of Closed Cases
    Type of Case                                                     FY 2004           FY 2005           FY 2006
    Examination                                                        28,592            30,810            33,182
    CDP                                                                32,226            27,888            32,362
    Offer in Compromise                                                17,887            17,850            12,846
    Penalty Appeals                                                    14,647            14,066            12,392
    Innocent Spouse                                                     4,713             5,169             4,564
    Industry                                                              670               664               856
    Coordinated Industry                                                  653               610               639
    Other                                                               4,558             5,540             5,718
    Totals                                                            103,946           102,597           102,559
    Source: Appeals Strategic Planning/Measures Analysis, Commissioner’s Monthly Report dated September 2006.

When Appeals assigns a taxpayer’s case for consideration, the hearing officer reviews the
administrative file to learn the history of the taxpayer’s account. After Appeals makes a decision
on the taxpayer’s case, it adds key documents such as the Appeals Case Memorandum and




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Appendix VI presents a Glossary of Terms used in the report.
                                                                                                              Page 1
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



determination letter to the administrative file. Appeals then returns the administrative file to the
appropriate business unit.3
In addition, an Appeals employee makes copies of pertinent documentation from the taxpayer’s
appeal to create an Appeals Closed Office File (Appeals file). Appeals management advised us
that Appeals has had difficulty obtaining the administrative files from other IRS functions. The
Appeals files allow the Office greater control in obtaining copies of taxpayer information so it
can more promptly answer questions from taxpayers or other IRS functions. Occasionally, a
taxpayer will return to Appeals to discuss a different tax period. The Appeals file provides the
hearing officer with perspective about a taxpayer’s case if there is not enough time to wait for the
administrative file to be located and delivered. See Appendix V for a complete list of documents
typically maintained in the Appeals files.
Appeals also stores an electronic version of the Case Activity Record on the Appeals Centralized
Database System (ACDS). As a result, there are two potential sources of records in addition to
the Appeals files: the administrative files stored with the business units or campuses and
electronic records stored on the ACDS. The ACDS can provide quick access to major decisions
from the Appeals hearing. The administrative file contains all relevant paper documents.
We performed this review at the Appeals offices in Holtsville, New York; Denver, Colorado;
Fresno, California; and Memphis, Tennessee, during the period September 2006 through
July 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 Administrative files for open cases are stored with the business units or campuses. Administrative files for closed
cases are sent to the Cincinnati Campus for processing.
                                                                                                             Page 2
                             The Office of Appeals Closed Case Files Are
                                Overwhelming Onsite Storage Space




                                 Results of Review

The Appeals closed case filing system is rapidly becoming unmanageable and losing the benefit
of its original reason for creation. Because its inventory is consistently more than 100,000 cases
per year, and some closed case files are retained for up to 10 years, Appeals is faced with
difficult decisions about the method it uses to retain these files. Some case files are no longer
easily accessible to Appeals employees, and Appeals is running out of storage space. In
addition, the Appeals files contain duplicate information that is available in the administrative
files and, in some cases, electronically on the ACDS.
Due to space limitations, Appeals has begun to ship some CDP files to a Federal Records Center
to store them for a fee. However, by shipping the files to a third party, Appeals is losing the
benefits of creating these files–better control over obtaining the files and the convenience of
having the records onsite. In addition, Appeals must pay for this storage. We estimated Appeals
could spend about $78,000 over a 10-year period to store CDP Appeals files at the various
Federal Records Centers nationwide. We also estimated Appeals is spending at least $266,000
each year for staff time and supplies to create its files. Given these conditions, we believe
Appeals should revise its policies and procedures related to the creation, storage, and retention of
Appeals files.
In 2003, Appeals began development of the Paperless Attachment Program to create and store
electronic versions of the Appeals files. However, the Program was not adequately planned or
tested. For example, after nearly 4 years in development, Appeals had not adequately tested the
Program or identified its storage and technical requirements. In FY 2007, Appeals suspended the
Program to evaluate alternatives to scanning documents into the ACDS and to implement a
project management approach. We believe Appeals should further assess the storage and
technical requirements of the Program and conduct controlled tests before implementing it.

Problems With and Costs of Storing Appeals Closed Case Files May
Exceed the Benefits
Appeals creates and maintains Appeals files primarily because it had difficulty in promptly
obtaining administrative files from the business units, and because Appeals management had
determined these files were more convenient than the administrative files for many of their
needs. We reviewed the uses of the Appeals files, and the costs to create and store them, to
determine whether Appeals’ policy for maintaining closed files was effective and efficient.
Sound management practices include a consideration of the costs and benefits before
implementing new policies.


                                                                                             Page 3
                                The Office of Appeals Closed Case Files Are
                                   Overwhelming Onsite Storage Space



Appeals officials stated the administrative files for cases closed in the campuses handling
Appeals cases are sent to the Cincinnati Campus in Covington, Kentucky. However, Appeals
officials advised us the Cincinnati Campus has had difficulty in storing administrative files due
to staff shortages and layoffs, resulting in boxes of files being stored on pallets. Consequently, if
a taxpayer returns to Appeals, it may take 3 months to 4 months to retrieve an administrative file
from the Cincinnati Campus. The problem of accessing administrative files also affects other
business units that need to review the records to work on taxpayers’ accounts.

Appeals did not know how often its files were needed
While reviewing Appeals files may be more convenient for its employees than waiting for
receipt of administrative files, Appeals had not conducted any studies to determine how often its
files were needed. Further, because Appeals files may not contain complete records, Appeals
employees may still need to request administrative files to obtain all necessary information. For
example, an administrative file may include correspondence between the IRS and the taxpayer,
IRS system printouts, or original tax returns that are not duplicated for the Appeals file.
In April 2007, Appeals conducted an employee survey that collected general information on how
often employees accessed Appeals files. Most of the responses indicated these files were helpful
to address subsequent inquiries from taxpayers and IRS employees, such as those in the
Taxpayer Advocate Service and the Office of Chief Counsel. Other survey responses included
ease of access to documents for Appeals officers reviewing the work performed on the case,
Appeals internal quality review, and answering Congressional inquiries. However, Appeals did
not track how often its files were used and by whom, what documents were requested, or what
types of cases were reviewed most often. Therefore, Appeals could not determine how many of
the Appeals files were actually used or what specific documents were used. Further, Appeals did
not know how often its files were needed as the cases got older.

Appeals did not have sufficient storage space for the increasing number of files
For most types of cases, Appeals retains its files for 3 years.4 However, Appeals stores some
types of Appeals files much longer. For example, Freedom of Information Act5 Appeals files are
retained for 6 years from the year of closure, and CDP Appeals files are retained for 10 years
after the cases are closed.6



4
  For FY 2006, Appeals would have had all of the cases closed in FYs 2004 and 2005 files and would have added
FY 2006 files as the cases were closed. At the beginning of FY 2007, the closed FY 2004 Appeals files would have
been purged.
5
  5 U.S.C. § 552 (2007). This Act provides public access to agency records unless they are protected from
disclosure by one of the Act’s nine exemptions or three exclusions.
6
  The Appeals files for Freedom of Information Act cases closed in FY 2006 would be purged at the beginning of
FY 2013. The Appeals files for CDP cases closed in FY 2006 would be purged at the beginning of FY 2017.
                                                                                                         Page 4
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



Appeals procedures require CDP Appeals files to be stored until the latest collection statute has
expired. However, the campuses were storing this type of file according to the month and year
in which the case was closed rather than the statute expiration date. For Appeals staff to
determine which files need to be purged, they needed to review every file to determine if the
latest collection statute date had expired. To avoid this labor-intensive process, Appeals decided
to store the CDP Appeals files for 10 years after the cases were closed to ensure all collection
statute dates had expired. Therefore, some CDP Appeals files were stored for years longer than
required, which added to the storage space problem.7
The lack of adequate storage space caused problems at the locations that stored Appeals files.
During our review, we visited the three campuses that stored Appeals files. Due to lack of space,
the campuses stored boxes of these files in cabinets and up against walls. For example:
    •    In mid-2005, one campus began creating and storing CDP Appeals files in addition to
         Offer in Compromise and Examination Appeals files. The campus had only two file
         cabinets available for new Appeals files. Due to lack of space, Appeals officials at this
         campus were considering storing the files at a Federal Records Center.
    •    In mid-2005, another campus began creating and storing CDP Appeals files in addition to
         Examination and Freedom of Information Act Appeals files. Appeals employees were
         storing the CDP files in their individual file cabinets or on their desks. Subsequent to our
         visit, the campus sent several boxes of CDP Appeals files to a Federal Records Center.
         Appeals officials anticipated having to use employee file cabinets again to store new
         CDP Appeals files. The campus was also running out of storage space for the
         Examination and Freedom of Information Act Appeals files.
    •    In Calendar Year 2006, a third campus began creating and storing CDP Appeals files in
         addition to Offer in Compromise, Penalty Appeals, and Examination Appeals files. This
         campus was also running out of storage space for new Appeals files.
The campuses we visited did not always store the Appeals files in an organized manner. These
files were stored by the month and year in which each case was closed, then by the first letter of
the taxpayer’s last name. However, the files were not always alphabetized. An employee
looking for a particular file would potentially have to search through several boxes to locate the
correct file.

By storing Appeals files at a Federal Records Center, Appeals is losing the
benefits of creating this type of file
Until September 2006, Appeals offices kept the Appeals files onsite. However, in October 2006,
Appeals sent some CDP Appeals files to a Federal Records Center for storage, and Appeals

7
 Based on the collection statute dates identified in the sample reviewed, the average required storage period was
8 years.
                                                                                                             Page 5
                                 The Office of Appeals Closed Case Files Are
                                    Overwhelming Onsite Storage Space



officials told us they were considering additional shipments. Because Appeals closes
approximately 30,000 CDP cases each year, it is likely some of the Federal Records Centers will
be used to store these files.8 By shipping the files to a third party, Appeals is losing the benefits
of creating these files–better control over obtaining the files and the convenience of having the
records onsite.
Because the Federal Records Centers are controlled by a third party, Appeals does not have
direct control over its files and must order them when needed. This process takes time and is not
consistent with the justification used for creating the Appeals files. Once files are archived at the
Federal Records Centers, their retrieval and location can be difficult due to the vast numbers and
types of files stored there. The Federal Records Centers store records in batches, which can
include numerous boxes of files. Although the Federal Records Centers can quickly locate a
shipment of boxes, it may be necessary to physically search through all of the boxes to find a
particular file if boxes are not appropriately labeled. Further, the information contained in an
Appeals file stored at a Federal Records Center is already available in the IRS administrative file,
which is also stored at a Federal Records Center in a different box if the case is closed or still
with the IRS function if the case is active.
In addition, Appeals must pay for the storage. The Federal Records Centers charge a one-time
fee, plus an annual fee, to store records. Appeals could put $60,570 of funds to better use over
5 years by discontinuing the practice of sending Appeals files to the Federal Records Centers.9
At the end of 10 years, 300,000 CDP files could be stored at the Federal Records Centers at a
total cost of $78,133. Figure 2 shows the cumulative storage costs that would be incurred in
each of the 10 years for the storage of CDP Appeals files.




8
  The number of cases in total and for each type of case closed by Appeals fluctuates each year. We believe
30,000 is a conservative estimate of the number of CDP cases closed each year.
9
  See Appendix IV for details of calculation.
                                                                                                              Page 6
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



                      Figure 2: Costs for Storage of CDP Appeals Files10
             Number
              of CDP        Number         Annual          Total          One-          Total
             Appeals        of Boxes       Storage        Annual          Time           One-
            Files to Be       to Be        Cost per       Storage       Cost per         Time           Total
 Year         Stored         Stored          Box           Costsa         Boxb          Costs           Costsc
   1          30,000           323          $2.28           $736         $11.65         $3,763          $4,499
   2          60,000           646          $2.28         $1,472         $11.65         $3,763          $5,236
   3          90,000           969          $2.28         $2,209         $11.65         $3,763          $5,972
   4         120,000         1,292          $2.28         $2,946         $11.65         $3,763          $6,709
   5         150,000         1,615          $2.28         $3,682         $11.65         $3,763          $7,445
   6         180,000         1,938          $2.28         $4,419         $11.65         $3,763          $8,182
   7         210,000         2,261          $2.28         $5,155         $11.65         $3,763          $8,918
   8         240,000         2,584          $2.28         $5,892         $11.65         $3,763          $9,654
   9         270,000         2,907          $2.28         $6,628         $11.65         $3,763         $10,391
  10         300,000         3,230          $2.28         $7,364         $11.65         $3,763         $11,127
 Totals                                                  $40,504                       $37,630         $78,133
 a) The Federal Records Centers charge 19 cents per box per month. We estimated 93 CDP Appeals files will fit
    in each box, so 323 boxes would be needed for 1 year of CDP Appeals files (30,000 files/93 files per box).
    The annual cost to store 1 box is $2.28 ($.19 per month for 12 months).
 b) The 1-time costs per box are $2.00 for the box, $1.20 for shipping, $3.45 for shelving, and $5.00 for
    disposition (total of $11.65). The 1-time fee of $11.65 applies only to the 30,000 CDP Appeals files added
    each year rather than to the total number of files in storage each year.
 c) Total for each row may be off by $1 due to rounding.
 Source: Our analysis based on estimates provided by Appeals staff.

If Appeals needs to retrieve an Appeals file that has been sent to a Federal Records Center,
additional costs will be incurred because the Centers charge a total of $6.90 to pull and reshelve
a single box. Because boxes are sent in shipments, it is possible a Federal Records Center would
have to pull several boxes to locate a particular Appeals file, thus significantly increasing the
cost.

Appeals incurred significant costs to create its Appeals files
We estimated that Appeals incurred staff costs of $252,744 to create Appeals files in FY 2006.
Figure 3 shows our estimates of these costs based on information provided by Appeals staff for
the grade levels of Appeals Processing Service function staff nationwide and the time needed to
copy case documents.



10
  We focused on storage for only the CDP Appeals files because these files are kept significantly longer than other
types of Appeals files.
                                                                                                            Page 7
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



              Figure 3: Staff Costs for Creation of Appeals Files in FY 2006
                                                         Average
                                                          Staff
                                                        Minutes to          Average           Estimated
                                          Total         Copy Each          Staff Cost         Total Staff
             Type of Case                Closures         Case             per Minute            Cost
         Examination                      33,182          10.0              $0.2458            $81,562
         CDP                              32,362           9.7              $0.2458             $77,160
         Offer in Compromise              12,846          12.6              $0.2458             $39,785
         Penalty Appeals                  12,392           6.4              $0.2458            $19,494
         Innocent Spouse                   4,564          11.3              $0.2458             $12,677
         Other                             5,718          15.7              $0.2458             $22,066
         Totals                          101,06411                                             $252,744
        Source: Our analysis based on estimates provided by Appeals staff.

The creation of each Appeals file involves staff time, paper, and copier costs.12 In addition to the
employees’ time to create the files, Appeals must use its paper supplies to print the documents.
Figure 4 shows our estimates of the paper costs incurred in creating Appeals files. The estimates
are based on information provided by Appeals staff regarding the cost of paper and information
from our statistical analysis of a sample of Appeals cases.




11
   The Total Closures number does not include the Industry Cases or Coordinated Industry Cases. We did not
include these types of cases because they represent a very small percentage of the total population of closed cases.
Additionally, the administrative files for these types of cases can be voluminous, making the Appeals files useful
when trying to locate important documents.
12
   Appeals did not track copier use, so we were unable to calculate copier costs for creation of Appeals files.
                                                                                                              Page 8
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



             Figure 4: Paper Costs for Creation of Appeals Files in FY 2006
                                                          Total        Estimated        Paper         Estimated
                               Total        Sample       Pages in        Total         Cost per      Total Paper
      Type of Case            Closures       Size        Sample         Pagesa          Page            Costs
 Examination                   33,182         200         5,801         962,444        $0.00544         $5,236
 CDP                            32,362        152          3,689        785,417        $0.00544         $4,273
 Offer in Compromise           12,846          49         1,125         294,934        $0.00544        $1,604
 Penalty Appeals                12,392         25           221         109,545        $0.00544          $596
 Innocent Spouse                 4,564         25           699         127,609        $0.00544          $694
 Other                          5,718          49           857         100,007        $0.00544          $544
 Totals                        101,064        500         12,392       2,379,956                       $12,947
 a) For each type of case, the Estimated Total Pages is calculated by dividing the Total Pages in Sample by the
 Sample Size and then multiplying by the Total Closures.
Source: Our review of a statistically valid sample of cases closed by Appeals in FY 2006.

Assuming the Appeals inventory remains constant, we estimated Appeals spends at least
$266,000 per year in staff and paper costs to create Appeals files.13 Over 5 years, the costs
would exceed $1.3 million. Given the cost, duplication, and storage limitations, we believe
Appeals should reevaluate its need and processes for creating and retaining Appeals files.

Taxpayer information is available from other sources
Appeals management advised us the Appeals files are necessary because they have had difficulty
in promptly retrieving the administrative files when needed, especially when taxpayers petition
the Tax Court. Appeals has conducted independent studies of FY 2006 data that showed more
than 60 percent of the administrative files were received within 30 calendar days when taxpayers
petitioned the Tax Court; however, it took more than 45 calendar days to receive 20 percent of
the administrative files for some taxpayers who had petitioned the Tax Court. Both the
Government Accountability Office14 and the Treasury Inspector General for Tax Administration15
have issued reports related to the difficulty in obtaining administrative files.
Appeals files are made up of copies of original documents maintained in the administrative files.
Appeals procedures state the purpose of the Appeals file is to “. . . keep a copy of important
Appeals correspondence and documents . . . that may not be a permanent part of the
administrative file.” However, as long as Appeals places all necessary original documents from
taxpayers’ hearings in the administrative files, or maintains some case-related information
electronically on the ACDS, the Appeals files may not be necessary.

13
   Includes $252,744 in staff costs and $12,947 in paper costs.
14
   TAX ADMINISTRATION: The Internal Revenue Service Can Improve Its Management of Paper Case Files
(GAO-07-1160, dated September 2007).
15
   Better Procedures Are Needed to Locate, Retrieve, and Control Tax Records (Reference Number 2004-10-186,
dated September 2004).
                                                                                                            Page 9
                            The Office of Appeals Closed Case Files Are
                               Overwhelming Onsite Storage Space




Recommendations
Recommendation 1: The Chief, Appeals, should conduct an analysis on all types of cases to
determine how often and when Appeals files are accessed. This analysis should include which
Appeals file documents are most often reviewed.
       Management’s Response: IRS management agreed with the recommendation and
       plans to conduct an analysis on how often and when Appeals files are accessed, including
       the reason for access and the types of documents involved.
Recommendation 2: Based on the results of the analysis in Recommendation 1, the
Chief, Appeals, should issue new guidelines for retention of Appeals files, especially concerning
the 10-year retention period for CDP case files, based on how often the files are used and the
cost to retain the files. At a minimum, the new guidelines and policies should:
   •   Consider the cost of creating and storing Appeals files.
   •   Ensure taxpayer information is adequately protected and secured.
   •   Ensure files can be stored locally and are easily accessible.
   •   Ensure CDP files can be timely identified and destroyed.
       Management’s Response: IRS management agreed with the recommendation and,
       based on the results of the analysis for Recommendation 1, plans to emphasize and/or
       issue case file retention guidelines that address each of the recommended areas, except
       for storing Appeals files locally, because Appeals processes preclude local storage of all
       closed case files. Appeals plans to also conduct an analysis to determine if its files for
       Equivalent Hearings are being retained longer than required by the Appeals Records
       Control Schedule.
Recommendation 3: The Chief, Appeals, should destroy or return the existing Appeals files
currently stored at a Federal Records Center and discontinue sending Appeals files in the future.
       Management’s Response: IRS management agreed with the recommendation and
       stated they plan to determine which Appeals files currently stored at a Federal Records
       Center are duplicates, so they can be returned and destroyed. Appeals plans to also revise
       guidelines to ensure no Appeals files that duplicate information already stored at a
       Federal Records Center are sent to a Federal Records Center.

The Appeals Paperless Attachment Program May Not Replace
Appeals Closed Case Files
In Calendar Year 2003, Appeals began work on the Paperless Attachment Program, which was
being designed to use an electronic file attachment option available in the ACDS that was not
being used. The main purpose of the Paperless Attachment Program was to enable Appeals to

                                                                                          Page 10
                                  The Office of Appeals Closed Case Files Are
                                     Overwhelming Onsite Storage Space



store an electronic version of an Appeals file rather than a paper version. This Program would
allow employees to research a case on the ACDS and find all Appeals documents rather than
locating, and possibly having to ship, the paper file. We reviewed the development of the
Program to determine if it was adequately planned, including the performance of a cost/benefit
analysis. Sound management practices include adequately planning a new program before it is
implemented.
Although Appeals spent nearly 4 years developing it, the Program was not thoroughly researched
or tested (e.g., Appeals did not perform any official testing to ensure the Program would work as
intended). Although some employees tried the Program, they were not required to provide any
formal feedback.
In addition, Appeals did not estimate the storage space required to store the electronic Appeals
files. Instead, it relied on assurances from its information technology staff that sufficient
electronic storage space was available. However, Appeals did not perform any
preimplementation tests to determine how much space the files would occupy on the ACDS.
Appeals officials advised us they planned to determine the average space requirement by
reviewing the electronic storage space used by 1 office in 1 week after Appeals began to use the
Program.

The Paperless Attachment Program could adversely affect performance of the
ACDS
Although Appeals planned to store electronic versions of the Appeals files on its main server, the
ACDS, management did not conduct an analysis to determine the average size of electronic files
to assess the overall storage capacity needed for the Paperless Attachment Program. Instead,
Appeals planned to establish a maximum limit of 500 megabytes per Appeals file. This
approach provided Appeals with insufficient data to adequately plan for the Program’s
implementation. Because not all files will be the same size, there is a wide range of possible
total storage requirements. However, if some Appeals files reach the limit of 500 megabytes per
file, the performance of the ACDS could be adversely affected.
To determine the potential storage requirements using Appeals’ limit of 500 megabytes per file,
we calculated the amount of electronic storage space needed to store Appeals files based on the
average number of cases closed each year. Appeals closes approximately 100,000 cases
annually,16 (30,000 CDP and 70,000 for all other types of cases17). Further, Appeals retains its




16
   The number of cases, in total and for each type of case, closed by Appeals fluctuates each year. We believe our
estimate of 100,000 closed cases, of which 30,000 are CDP cases, is conservative based on prior year closures.
17
   Non-CDP cases are retained for at least 2 years and up to 3 years. To allow for a conservative estimate, we used
the 2-year retention period.
                                                                                                           Page 11
                                   The Office of Appeals Closed Case Files Are
                                      Overwhelming Onsite Storage Space



CDP case files for 10 years and its other types of files for at least 2 years.18 Figure 5 shows the
potential storage space required to store all Appeals files for 10 years.
 Figure 5: Potential Storage Space Requirements for Appeals Files Based on the
                        Retention Period for Each File Type
              Cumulative
              Number of                                 Number of            Storage Space
              CDP Cases         Storage Space            Non-CDP              Potential for          Maximum
                to Be            Potential for          Cases to Be            Non-CDP             Storage Space
     Year      Storeda           CDP Casesb               Storedc               Casesd               Potentiale
      1           30,000            14,648 GB               70,000              34,180 GB             48,828 GB
      2           60,000            29,297 GB               140,000             68,359 GB             97,656 GB
      3           90,000            43,945 GB               140,000             68,359 GB             112,305 GB
      4          120,000            58,594 GB               140,000             68,359 GB             126,953 GB
      5          150,000            73,242 GB               140,000             68,359 GB             141,602 GB
      6          180,000            87,891 GB               140,000             68,359 GB             156,250 GB
      7          210,000           102,539 GB               140,000             68,359 GB             170,898 GB
      8          240,000           117,188 GB               140,000             68,359 GB             185,547 GB
      9          270,000           131,836 GB               140,000             68,359 GB             200,195 GB
     10           300,000          146,484 GB             140,000               68,359 GB             214,844 GB
 GB = Gigabytes
 a) Because the CDP files are stored for 10 years, each year 30,000 files will be stored in addition to all those put
 in storage in the previous years.
 b) The Storage Space Potential for CDP Cases is calculated by multiplying the Cumulative Number of CDP
 Cases to Be Stored by 500 megabytes (the Appeals limit) and then dividing by 1,024 (the number of megabytes
 in a gigabyte).
 c) Because we assumed the Non-CDP files are maintained for 2 years, after Year 2 the Number of Non-CDP
 Cases to Be Stored will remain constant because as 70,000 files are added each year, the 70,000 files put in
 storage 2 years previously will be purged.
 d) The Storage Space Potential for Non-CDP Cases is calculated by multiplying the Number of Non-CDP Cases
 to Be Stored by 500 megabytes (the Appeals limit) and then dividing by 1,024 (the number of megabytes in a
 gigabyte).
 e) Total for each row may be off by 1 GB due to rounding.
Source: Our analysis based on estimates provided by Appeals staff.




18
  The files for cases with a Closing Agreement are maintained for 10 years. However, Appeals did not track how
many cases are closed with a Closing Agreement, so we could not accurately determine the 10-year retention period
or how many cases are affected by it.
                                                                                                              Page 12
                                    The Office of Appeals Closed Case Files Are
                                       Overwhelming Onsite Storage Space



At the end of 10 years, the Paperless Attachment Program’s storage requirements could be nearly
215,000 gigabytes, with the CDP Appeals files requiring more than 146,000 gigabytes. In
contrast, the current size of the ACDS is approximately 25 gigabytes. The upper limit of our
calculated potential storage space represents an increase of approximately 859,000 percent over
the current size of the ACDS. Expressed in simple terms for comparison, if the current ACDS
size were represented as a 1-foot ruler, the highest potential storage requirement for the Paperless
Attachment Program could be nearly the height of 6 Empire State Buildings stacked on top of
each other.19 As a practical matter, the highest end of this range would not be feasible given the
capacity of the ACDS and demonstrates the need for a better analysis and estimate of the true
storage requirements.
Appeals had not analyzed the ability of the ACDS to handle the additional workload of the
Paperless Attachment Program. During the beginning stages of the Program’s development, an
executive over the Program stated the ACDS could not be used to house the electronic Appeals
files, because doing so would cause the ACDS to crash. During our discussions with Appeals
officials, we were advised they planned to maintain all electronic documents for these files on
the ACDS.
However, Appeals had not conducted any testing to determine if the ACDS server could handle
the increased workload presented by the Paperless Attachment Program. Appeals management
believed actual physical storage space would not be an issue due to their ability to purchase
additional hard drives. However, some Appeals staff expressed concern about the server’s
ability to handle the frequent uploads and downloads that the new Program would require.
Appeals had not developed a contingency plan in the event that the server could not handle the
added workload.
In addition, the storage space and demands on the server could be detrimental to the efficiency of
the ACDS, which is the main system used by most employees in Appeals including hearing
officers, their managers, tax computation specialists, and the Appeals Processing Service
function staff. The ACDS is used to log in cases, track activity related to the cases, charge time
to each case, document employee evaluations, and close cases and for business planning
purposes. A decrease in the efficiency of this System could severely affect the overall
performance of Appeals. Appeals information technology staff believe it may be possible to
compress the data, thereby decreasing the amount of electronic storage space needed, but this has
not yet been tested.

There are recurring costs for the Paperless Attachment Program
In addition to the funds already expended, there will be continuing expenses related to use of the
Paperless Attachment Program. The major ongoing expense will be staff time to scan and


19
     This analysis is based on the Appeals criterion of 500 megabytes (maximum) per file.
                                                                                            Page 13
                                    The Office of Appeals Closed Case Files Are
                                       Overwhelming Onsite Storage Space



upload the documents. However, there would also be continuing equipment costs, as scanners
need to be replaced and additional electronic storage space needs to be purchased.
Based on the limited testing performed, Appeals estimated it would take 5 minutes per case to
scan in the necessary documents. Applying this time to the approximately 100,000 cases closed
per year, we determined more than 8,000 hours a year would have to be dedicated to scanning
documents. If the Appeals Processing Service function technicians who currently make copies
of documents for the paper Appeals files are responsible for scanning documents, the estimated
annual staff costs would be $122,900 to scan documents for Appeals files.20

Appeals plans to reevaluate the Paperless Attachment Program
At the conclusion of our fieldwork, Appeals management informed us they were considering
using copiers rather than scanners to upload electronic documents to the ACDS. However, to
comply with the national contract the IRS has for its copiers, Appeals must first convert its
copier inventory and participate in a certification process. Although the Paperless Attachment
Program was scheduled to be implemented in March 2007, it will remain on hold until all
machines are certified under the national contract. Appeals’ goal is to have all machines under
the national contract in early FY 2008.
The Chief, Appeals, recognized that additional planning and cost/benefit analysis were necessary
to improve development of the Paperless Attachment Program. As a result, implementation of
the Program was delayed, and Appeals began a “second phase” of development to include a
cost/benefit analysis and consideration of the additional server space needed and the potential
impact on performance of the ACDS. We believe Appeals should assess storage requirements
and conduct testing of the ACDS before proceeding with implementation of the Paperless
Attachment Program.

Recommendation
Recommendation 4: The Chief, Appeals, should conduct further planning, analysis, and
testing, including assessing storage requirements, before implementing the Paperless Attachment
Program.
           Management’s Response: IRS management agreed with the recommendation and
           plans to conduct further planning, analysis, and testing, including determining storage
           requirements, before implementing or cancelling the Paperless Attachment Program.




20
     The $122,900 in staff costs is based on FY 2006 salaries.
                                                                                             Page 14
                                 The Office of Appeals Closed Case Files Are
                                    Overwhelming Onsite Storage Space



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the Office of Appeals (Appeals) has an
effective process to efficiently retain closed case information. To accomplish our objective, we:
I.      Reviewed existing regulations, requirements, guidelines, and procedures regarding the
        production and maintenance of Appeals files.
        A. Reviewed various Internal Revenue Manual sections regarding the production, use,
           and maintenance of these files.
        B. Discussed with Appeals officials the business purpose for these files, the processing
           of cases, and the retention policies for files.
        This review was the extent of our work on internal controls. We did not identify any
        internal control weaknesses or issues.
II.     Obtained from the ACDS1 file maintained at the Treasury Inspector General for Tax
        Administration Data Center Warehouse a computer extract of all cases closed between
        October 1, 2005, and September 30, 2006. We validated the reliability of the computer
        extract using information from the Data Center Warehouse, reviewed the appropriateness
        of data within fields requested, and compared population totals to information obtained
        from Appeals officials.
III.    Selected statistically valid samples for each of six separate types of cases.2 The total
        sample of 500 cases was selected based on a confidence level of 95 percent and a
        precision rate of +5 percent; it included an additional 100 cases randomly selected to
        substitute for lost or unobtainable cases. The total sample was obtained from the
        population of 101,064 cases closed in FY 2006 for the 6 types of cases.




1
  Appendix VI presents a Glossary of Terms used in the report.
2
  The 6 types of cases and their sample sizes were Examination (200), CDP (152), Offer in Compromise (49),
Requests for Penalty Abatement (Penalty Appeals) (25), Innocent Spouse (25), and Other (49), for a total sample
size of 500 cases.




                                                                                                         Page 15
                           The Office of Appeals Closed Case Files Are
                              Overwhelming Onsite Storage Space



IV.   Obtained and reviewed case files for each of the six samples to determine the number of
      pages in each reviewed Appeals file. We also estimated the costs to create and store the
      files and assessed electronic storage requirements.
V.    Conducted site visits and interviews with Appeals officials to determine staff and
      Paperless Attachment Program costs related to the production of Appeals files. We
      applied this cost information to the estimated page totals derived from our file reviews.
VI.   Discussed with Appeals officials the development of the Paperless Attachment Program,
      including the planning process, costs associated with the Program, and plans for its
      implementation.




                                                                                         Page 16
                          The Office of Appeals Closed Case Files Are
                             Overwhelming Onsite Storage Space



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Janice M. Pryor, Audit Manager
Stephanie K. Foster, Lead Auditor
Mark A. Judson, Senior Auditor
Donald J. Martineau, Auditor




                                                                                    Page 17
                          The Office of Appeals Closed Case Files Are
                             Overwhelming Onsite Storage Space



                                                                  Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                        Page 18
                                   The Office of Appeals Closed Case Files Are
                                      Overwhelming Onsite Storage Space



                                                                                  Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Funds Put to Better Use – Potential; $60,570 to store CDP1 Office of Appeals (Appeals) files
      over 5 years at a Federal Records Center (see page 3).

Methodology Used to Measure the Reported Benefit:
If Appeals discontinues sending its files to a Federal Records Center, it will no longer need to
pay for the storage and retrieval of these files. We estimated each box of CDP Appeals files sent
to a Federal Records Center contains 93 files. We divided the total number of CDP Appeals files
for FY 2006 (32,362) by the average number of cases per box (93) to arrive at 348 boxes. One
year of storage per box totals $2.28. We determined the cost of storing 1 fiscal year’s CDP
Appeals files for 10 years to be $7,934. The costs per box for the box itself, shipping, shelving,
and disposition total $11.65. We determined the cost of shipping, shelving, and disposing of
1 fiscal year’s CDP Appeals files to be $4,054. The cost per year for processing would be $126
(the 3 campus locations that store CDP Appeals files would have to send files, and each
submission has a processing fee of $42). Therefore, we determined the total cost of processing
and storing 1 fiscal year’s CDP Appeals files for 10 years to be $12,114. We projected this
potential annual savings over 5 fiscal years of CDP Appeals files.




1
    Appendix VI presents a Glossary of Terms used in the report.
                                                                                           Page 19
                                   The Office of Appeals Closed Case Files Are
                                      Overwhelming Onsite Storage Space



                                                                                     Appendix V

                 Contents of Appeals Closed Office Files

Office of Appeals (Appeals) procedures state that, if the following documents have been
prepared, a copy should be maintained in the Appeals file:
      •    Case Activity Record.1
      •    Appeals Transmittal and Case Memo (Form 5402).
      •    Appeals Case Memorandum.
      •    Audit Statement.
      •    Agreement.
      •    Appeals Closing Record (Form 5403).
      •    Appeals Short Closings (Form 5570).
      •    Appeals Transmittal Memorandum and Supporting Statement-Penalty (Form 9120).
      •    Request for Adjustment (Form 3870).
      •    Concurrent Determinations of Deficiencies (Increases in Tax) and Overassessments
           (Decreases in Tax) in Cases Involving Restricted Interest Provisions of the Internal
           Revenue Code (Form 2285).
      •    Closing Agreement.
      •    Closing Letter.
      •    Notice of Termination of Special Consent to Extend the Time to Assess Tax
           (Form 872-T).
      •    Audit Statement (Form 3610).
      •    Statement - Income Tax Changes (Form 5278).
      •    Tax Court Decisions.
      •    Installment Agreement.
      •    Prior and/or related supporting statements, if applicable.




1
    Appendix VI presents a Glossary of Terms used in the report.
                                                                                             Page 20
                            The Office of Appeals Closed Case Files Are
                               Overwhelming Onsite Storage Space



   •   Copy of the revenue agent’s report for the flowthrough entity or U.S. Individual Income
       Tax Return (Form 1040) Profit or Loss From Business (Schedule C) promotion for tax
       shelter cases.
   •   Copy of Notice of Deficiency.
   •   Copy of determination letter.
Other documents that may be in the Appeals file, although not required, include:
   •   Closing Agreement on Final Determination Covering Specific Matters (Form 906) or
       Agreement as to Final Determination of Tax Liability (Form 866).
   •   Counsel Settlement Memorandum.
   •   Fast Track Settlement Report (if applicable).
   •   Operations Assistance Request (OAR) (Form 12412).
   •   Waiver of Statutory Notification of Claim Disallowance (Form 2297).
   •   Notice of Determination of Worker Classification.
For CDP cases, Appeals also maintains the following documents:
   •   CDP Notice (Final Notice – Notice of Intent to Levy and Notice of Your Right to a
       Hearing (Letter 1058), Notice of Federal Tax Lien Filing and Your Rights to a Hearing
       Under IRC 6320 (Letter 3172), et al.).
   •   Cases Activity Record and Automated Timekeeping System Case History.
   •   ACDS Case Summary Card.
   •   Request for a Collection Due Process Hearing (Form 12153) or Written Request.
   •   Envelope (Postmark).
   •   Determination/Decision Letter and Attachment.
   •   Summary Notice of Determination, Waiver of Right to Judicial Review of a Collection
       Due Process Determination and Waiver of Suspension of Levy Action (Form 12257).
   •   Form 3210 (Document Transmittal).
   •   Appeals Case Memo (if applicable).
   •   Court Decision (if applicable).
   •   Offer in Compromise (if applicable).
   •   Form 3870 (if applicable).
   •   Form 9120 (if applicable).


                                                                                        Page 21
                             The Office of Appeals Closed Case Files Are
                                Overwhelming Onsite Storage Space



                                                                                Appendix VI

                               Glossary of Terms

Administrative File             A file containing one or more examined tax returns; the
                                examination report; and all papers, correspondence, and other
                                documents relative to the taxpayer’s liability for the year or
                                years involved. It is the official IRS record of the case.
Appeals Case Memorandum         A report prepared by the hearing officer to adequately explain
                                and support the basis on which a work unit is disposed.
Appeals Centralized Database    A web-based application used by all Office of Appeals
System (ACDS)                   (Appeals) employees; it incorporates functionality for various
                                employee occupations, including executives, Headquarters
                                analysts, Appeals Processing Service function employees,
                                Appeals managers, and hearing officers.
Appeals Processing Service      The function that provides technical assistance and support for
Function                        controlling and processing all Appeals and Office of Chief
                                Counsel tax cases. It is the final processing point in the
                                Appeals office and performs the full range of interim and
                                closing actions. This includes adjustments, assessments,
                                manual refunds, abatements, installment agreements, and offers
                                in compromise for all types of tax cases.
Campus                          The data processing arm of the IRS. The campuses process
                                paper and electronic submissions, correct errors, and forward
                                data to the Computing Centers for analysis and posting to
                                taxpayer accounts.
Case Activity Record            The record that tracks the amount of time a hearing officer
                                worked on a particular case; it includes notes by the hearing
                                officer regarding actions taken and decisions made related to the
                                case.
Case Activity Record and        A subsystem within the ACDS used by hearing officers to
Automated Timekeeping           record their case time, prepare their timesheets, and record case
System                          activity.




                                                                                         Page 22
                            The Office of Appeals Closed Case Files Are
                               Overwhelming Onsite Storage Space



Collection Due Process (CDP) The process through which a taxpayer may appeal the first time
                             a Federal Tax Lien is filed on a tax period and before the IRS
                             levies against his or her property. This type of case is referred
                             to as a CDP case.
Coordinated Industry Case       The program that involves taxpayers liable for one or more
Program                         different types of excise taxes. Cases involve those in which
                                the taxpayer and its effectively controlled entities warrant the
                                application of team examination procedures.
Determination Letter            A letter sent to the taxpayer informing him or her of the hearing
                                officer’s decision regarding the case. In a CDP hearing, the
                                determination letter also informs the taxpayer of his or her right
                                to petition the Tax Court if he or she does not agree with the
                                Appeals decision.
Examination                     The IRS examination (audit) of a tax return(s) to verify that the
                                tax reported is correct.
Federal Records Center          The Federal Records Center Program stores and services
                                records for nearly 400 Federal Government agencies. The
                                Program operates 17 facilities nationwide and stores 25 million
                                cubic feet of records.
Gigabyte                        Represents 1.073741824 billion bytes or 1,024 megabytes.
                                Most hard drive sizes are listed in gigabytes.
Hearing Officer                 The general term used to refer to a staff member who conducts
                                Appeals hearings. The term includes both Appeals officers and
                                settlement officers.
Industry Case                   Any Large and Mid-Sized Business Division case that is not
                                designated as a Coordinated Industry Case.
Innocent Spouse                 By requesting Innocent Spouse relief, a taxpayer may be
                                relieved of responsibility for paying tax, interest, and penalties
                                if his or her spouse (or former spouse) improperly reported
                                items or omitted items on a jointly filed tax return.
Megabyte                        A unit used to describe memory and disk capacity that is equal
                                to approximately 1.048576 million bytes or 1,024 kilobytes. It
                                is also equivalent to about 500 pages of text.




                                                                                           Page 23
                             The Office of Appeals Closed Case Files Are
                                Overwhelming Onsite Storage Space



Offer in Compromise             A taxpayer unable to pay his or her tax liability in a lump sum
                                or through an installment agreement may file an offer in
                                compromise.
Other                           “Other” types of appeals include both collection
                                (e.g., Collection Appeals Program) and noncollection
                                (e.g., Preparer, Abatement of Interest) cases.
Paperless Attachment            A program developed by Appeals staff to allow for the scanning
Program                         of documents to create an electronic version of Appeals files to
                                replace the current paper Appeals files.
Penalty Appeals                 In some cases, taxpayers may request relief from certain
                                penalties if they can show they exercised ordinary business care
                                and prudence in determining their tax obligations but were
                                unable to comply with those obligations due to circumstances
                                beyond their control.
Revenue Agent                   An IRS employee who audits complicated income, sales, and
                                excise tax returns of businesses and large corporations.
Tax Computation Specialist      An IRS employee responsible for preparing audit statements,
                                notices of deficiency, tentative computations, information
                                statements, and other analyses. In addition, the employee
                                prepares tentative computations, schedules, and exhibits
                                reflecting the impact of legal opinions or settlement
                                possibilities.
Taxpayer Advocate Service       An IRS program that provides an independent system to assure
                                that tax problems, which have not been resolved through normal
                                channels, are promptly and fairly handled.
Treasury Inspector General      A collection of historical data from various IRS databases and
for Tax Administration Data     systems.
Center Warehouse




                                                                                         Page 24
          The Office of Appeals Closed Case Files Are
             Overwhelming Onsite Storage Space



                                                  Appendix VII

Management’s Response to the Draft Report




                                                        Page 25
The Office of Appeals Closed Case Files Are
   Overwhelming Onsite Storage Space




                                              Page 26
The Office of Appeals Closed Case Files Are
   Overwhelming Onsite Storage Space




                                              Page 27
The Office of Appeals Closed Case Files Are
   Overwhelming Onsite Storage Space




                                              Page 28
The Office of Appeals Closed Case Files Are
   Overwhelming Onsite Storage Space




                                              Page 29
